           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


          CONTRACT WITH
        DELL MARKETING, L.P.,
      FOR MICROSOFT LICENSING
         AND MAINTENANCE


    September 2011   A-06-10-10175




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      September 15, 2011                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Contract with Dell Marketing, L.P., for Microsoft Licensing and Maintenance
           (A-06-10-10175)


           OBJECTIVE
           Our objectives were to review the services provided under Blanket Purchase Agreement
           (BPA) SS00-09-40002 and the related costs charged to the Social Security
           Administration (SSA) for adherence to the negotiated terms and applicable regulations
           and to ensure SSA received the goods and services for which it paid.

           BACKGROUND
           Executive Order 13103, Computer Software Piracy, 1 requires that Federal agencies
           establish procedures to ensure compliance with established computer software
           licensing laws and regulations. SSA’s Office of Telecommunications and Systems
           Operations (OTSO) develops guidelines and processes to ensure SSA complies with
           the Executive Order. Components that purchase or consider purchasing desktop and
           laptop computers contact OTSO to acquire licensing rights for the Agency’s standard
           commercial-off-the-shelf software suite.

           When SSA buys new computers to replace existing equipment, no license purchases
           are necessary, as SSA simply transfers the licenses to the new equipment. However, if
           SSA loads licensed software on new computers that are not replacements for existing
           equipment, it must purchase the software licenses. Components report these
           transactions to OTSO, which, in turn, forwards the information to the Contracting
           Officer’s Technical Representative. At the end of the year, SSA submits one
           comprehensive payment for the software installed throughout the year.

           In September 2003, SSA awarded a 5-year delivery order to Softmart Government
           Services, Inc., to purchase software licenses and maintenance for Microsoft products.
           Under the delivery order, SSA increased the number of Windows Operating System
           licenses from 107,946 to 131,103. It also increased both Microsoft’s Office Professional

           1
               63 Fed. Reg. 53,273 (Sept. 30, 1998).
Page 2 - The Commissioner


and Client Access licenses from 107,946 to 119,153. The total value of Microsoft
licenses and maintenance purchased under this delivery order was $105 million.

On December 22, 2008, SSA awarded a 5-year BPA, 2 estimated at $131 million to
ASAP Software Express, Inc. (ASAP), to purchase licenses for Microsoft products and
provide technical and maintenance support for the existing suite of Microsoft products.
Subsequently, Dell Marketing, L.P. (DMLP), acquired ASAP, and on February 9, 2009,
SSA transferred the BPA to DMLP. The BPA is now in Year 3 (October 23, 2010
through October 22, 2011). See Appendix B for detailed information regarding the
scope and methodology for our audit.

RESULTS OF REVIEW
Amounts paid for services provided under the BPA were in accordance with negotiated
prices, and SSA received the goods and services for which it paid. Invoices for
Microsoft products and services were allowable, accurate, properly approved, and paid
timely.

However, SSA did not provide documentation to support recent, significant increases in
purchases of Client Access licenses and related support. Since 2008, SSA has spent
approximately $3.2 million to purchase about 7,300 more Client Access licenses than
necessary to support SSA software users (see Appendix C for calculations).

Since 2004, SSA has also purchased approximately 32,800 more Windows Operating
System and 17,500 more Office Professional licenses than needed to accommodate the
overall growth in the number of SSA and disability determination services (DDS)
employees who used the software. SSA stated the growth in Operating System and
Office Professional license purchases resulted from the addition of a large number of
computers in front-end interviewing areas, training centers, etc. However, SSA could
not provide documentation to substantiate this assertion or fully account for the growth
in the purchases of these licenses since 2004.

CLIENT ACCESS LICENSES

Microsoft Client Access license software enables users to connect devices to servers
operated by Microsoft software. Under the DMLP contract, SSA purchased Client
Access licenses and maintenance (also referred to as software assurance) based on
the number of software users with SSA server access.

Comparison of license/assurance purchases with the actual number of SSA and DDS
employees revealed that since December 2008, SSA has procured 10,334 more
Enterprise Client Access licenses than necessary to support the combined number of
SSA and DDS employees who used the software (see red section on Chart 1).



2
 A BPA is a simplified method for filling anticipated repetitive needs for supplies or services by
establishing the equivalent of “charge accounts” with qualified supply sources.
Page 3 - The Commissioner


                     Chart 1. Enterprise Client Access License Purchases
      110,000

                                                                       99,138     Cumulative Purchases
      100,000
                                             93,213
       90,000
                 85,000
                                                                      88,804       SSA/DDS Employees
                                             85,151
       80,000
                 80,047

       70,000
              2008                               2009                      2010


Agency staff did not explain why at the end of Fiscal Year 2008, SSA owned and
contracted to maintain 85,000 licenses, when Human Resources statistics indicated
combined SSA and DDS personnel totaled 80,047. 3 Further, SSA did not explain why it
increased purchases of these licenses to 99,138 at the end of Fiscal Year 2010, when
SSA Human Resources statistics indicated the combined number of SSA and DDS
personnel totaled 88,804.

Our review of contract files suggested that, contrary to the terms of the licensing
agreement, SSA purchased Client Access licenses based on the number of computers
instead of the number of software users.

    SSA Provided On June 9, 2011, the OTSO Division of Resource Management and
    Additional   Acquisition provided additional information regarding SSA purchases
    Information  of Client Access licenses. In addition to SSA and DDS users, OTSO
                 identified another 3,708 contractors, Foreign Service Post
employees, and security personnel for whom SSA purchased software licenses; leaving
7,256 unaccounted Client Access licenses users.

As a result, we estimate SSA spent approximately $3.2 million more for Client Access
licenses and software assurance than was necessary to support combined SSA
software users (see calculations in Appendix C). 4

To address these excess licenses, OTSO stated it will not purchase any additional
Client Access licenses in 2011, and will hold the extra 7,256 licenses in reserve until
SSA’s user community surpasses the current total or the contract is recompeted. When
the contract is recompeted, SSA will adjust the number of licenses to reflect its actual
requirement.

3
    Staffing figures as of September 30, 2008.
4
  The contract does not incorporate any provisions that allow SSA to reduce the number of software
licenses purchased and maintained.
  Page 4 - The Commissioner


  WINDOWS OPERATING SYSTEM AND OFFICE PROFESSIONAL

  SSA uses Windows Vista operating system software and installs Office Professional5 on
  Agency computers. According to the Contracting Officer’s Technical Representative,
  SSA procures operating system licenses based on the number of computers loaded
  with the software and Office Professional licenses based on the number of desktop
  computers loaded with the software.

  We compared license/maintenance purchases with the actual number of SSA and DDS
  employees on hand since the end of Fiscal Year 2004. The comparison indicated that
  SSA had procured approximately 32,800 more Windows Operating Systems (see red
  section on Chart 2) and 17,400 more Office Professional (see red section on Chart 3)
  licenses and maintenance than needed to accommodate actual net employee growth.


        Chart 2. Operating Systems Purchases                                    Chart 3. Office Professional Purchases
                        (Thousands)                                                          (Thousands)

                                         148.6

                               140.9                  Cumulative                                                    133.3
                                                      License                                          127.4
                131.1                                 Purchases
                                                                                          119.2


                                                                                                                     115.8
                                                      Licenses
                                         115.8                                                         111.1
                                                      Adjusted to           107.9        104.4
      107.9                     111.1                 Reflect Employee
                104.4
                                                      Growth Since
                                                      2004
                                                                                                                     88.8
                                          88.8                                                             85.2
                                85.2                  Combined              82.7
      82.7      80.0                                                                      80.0
                                                      SSA/DDS
                                                      Employees
2004            2008              2009         2010                      2004             2008             2009          2010



  During a 6-year period when combined SSA and DDS staffing increased by
  approximately 6,100 employees, SSA purchased approximately 40,700 additional
  Windows Operating System and 25,400 Office Professional licenses. Much of the
  increase occurred from 2004 through 2008. During that 4-year period, combined SSA
  and DDS staff declined by about 2,700 employees; 6 however, SSA purchased
  approximately 23,200 additional Windows Operating System and 11,200 Office
  Professional licenses.




  5
   Office Professional includes various software applications, such as Word, Excel, Access, PowerPoint,
  and Outlook.
  6
    Per data provided by SSA Human Resources, combined SSA/DDS employees declined from 82,746 at
  the end of Fiscal Year 2004 to 80,047 at the end of Fiscal Year 2008.
Page 5 - The Commissioner

Our September 2010 report, Delivery Order with Softmart Government Services, Inc.,
for Microsoft Licensing and Maintenance (A-06-10-11019), stated SSA did not maintain
documentation to indicate how it computed its requirements for Windows Operating
System and Office Professional licenses and related maintenance support. SSA
officials acknowledged this and stated SSA based its requirements on the number of
licenses maintained under the prior contract. SSA officials stated they believed that
SSA documented these requirements in prior contract files. However, we could not
confirm this because SSA purged the prior contract files after the required retention
period expired. Similarly, we found SSA did not maintain documentation to indicate how
it computed Client Access, Operating System, and Office Professional licenses and
related maintenance support incorporated into the Dell contract.

 Request for          On December 7, 2010, we forwarded a summary of our audit
 Additional           findings to the Office of the Chief Information Officer (CIO), who is
 Supporting           responsible for managing SSA’s information technology
 Documentation        investment process and assessing the performance of SSA’s
                      major technology investments. We requested that the CIO
provide support for recent significant increases in Microsoft license and maintenance
purchases.

On April 11, 2011, the CIO provided documentation that summarized SSA Operations
computer workstation requirements. In explaining the recent surge in purchases of
Operating System and Office Professional licenses, the CIO stated that because of use
of front-end interview stations, reception areas, training and other special purposes,
Operations fields about 22,000 more computers than its number of assigned staff. The
CIO’s office did not perform similar allocation for other Agency components but stated
other components have special needs for labs and the Office of Systems has many
machines in use for monitoring and test purposes.

On June 9, 2011, the OTSO Division of Resource Management and Acquisition
provided additional information regarding SSA purchases of Operating System and
Office Professional licenses. OTSO compared the number of licenses purchased to the
number of desktops and laptops reflected on SSA’s Hewlett Packard Asset Manager
System. OTSO determined the number of Operating System licenses closely
corresponded to, and the number of Office Professional licenses did not vary
significantly from, the number of desktops and laptops appearing in the inventory
system. OTSO stated it will continue to request funding to implement an automated
software asset management process that will enable the Agency to more efficiently
manage software licensing.

Business processes implemented since 2004 may have required that SSA install more
computers than the number of newly hired employees, and SSA’s license purchases
may have correlated with the number of desktops and laptops that appeared in SSA’s
inventory system. However, this does not fully explain or justify the purchase of more
than six Operating System and four Office Professional licenses for each net employee
added since 2004. The recent growth in license purchases could also indicate that
Page 6 - The Commissioner


(1) SSA increased software license purchases when hiring new employees but did not
decrease the number of licenses when employees left SSA or (2) SSA paid license and
maintenance fees for inactive desktop or laptop computers.

CONCLUSION AND RECOMMENDATIONS
SSA complied with the terms of the contract and received the contracted goods and
services for which it paid. However, SSA did not provide documentation to support
large increases in Client Access, Windows Operating System, and Office Professional
license and maintenance purchases. Since 2008, SSA spent about $3.2 million to
purchase approximately 7,300 more Client Access licenses than necessary to support
SSA software users. SSA also appeared to purchase thousands more Operating
System and Office Professional licenses than needed to support SSA software users.

Accordingly, we recommend that SSA:

1. Ensure future Client Access license purchases are based on the actual number of
   SSA users.

2. Document the process used to determine the number of licenses purchased, and
   maintain and update that documentation as needed for future contracts.

AGENCY COMMENTS
SSA agreed with our recommendations. SSA’s comments are included in Appendix D.




                                       Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Computation of Questioned Costs

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                           Appendix A

Acronyms

ASAP        ASAP Software Express, Inc.
BPA         Blanket Purchase Agreement
CIO         Chief Information Officer
DDS         Disability Determination Services
DMLP        Dell Marketing, L.P.
Fed. Reg.   Federal Register
OTSO        Office of Telecommunications and Systems Operations
SSA         Social Security Administration
                                                                        Appendix B

Scope and Methodology
To accomplish our objectives, we:

•     Reviewed Executive Order 13103, Computer Software Piracy. 1

•     Reviewed the Office of the Inspector General report, Delivery Order with Softmart
      Government Services, Inc., for Microsoft Licensing and Maintenance
      (A-06-10-11019), September 2010.

•     Reviewed the Blanket Purchase Agreement (BPA) SS00-09-40002 for Microsoft
      Products, Maintenance, and Technical Support Services signed December 22, 2008.

•     Reviewed the Systems Procurement Request for Maintenance and Support Services
      for Microsoft Proprietary Software.

•     Reviewed documentation of support services provided under the BPA.

•     Interviewed the Contracting Officer’s Technical Representative in the Division of
      Resource Management and Acquisition and staff in the Offices of Finance and the
      Chief Information Officer.

•     Obtained a list from the Office of Finance identifying 22 invoices, totaling
      $62,043,809, paid under this BPA as of June 24, 2010. We reviewed these invoices
      to ensure the Social Security Administration (SSA) (1) paid amounts approved in the
      BPA, (2) properly approved invoices before payment, (3) paid invoices timely in
      accordance with the terms of the BPA, and (4) correctly recorded invoice amounts.

•     Obtained SSA and disability determination services staffing data for Fiscal Years
      2004 through 2010.

We performed our audit at SSA Headquarters in Baltimore, Maryland, and Dallas,
Texas, from June 2010 through April 2011. We found the data used for this audit were
sufficiently reliable to meet our objectives. The entity audited was the Division of
Resource Management and Acquisition under the Office of the Deputy Commissioner
for Systems. We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our objectives.


1
    63 Fed. Reg. 53,273 (Sept. 30, 1998).
                                                                                   Appendix C

Computation of Questioned Costs
The Social Security Administration (SSA) is required to obtain one Microsoft Enterprise
Client Access license for each SSA or disability determination services (DDS) employee
with access to the Agency’s servers. Comparison of the actual number of SSA and
DDS employees with the number of Client Access licenses purchased indicated that
SSA had purchased more licenses than necessary to support employees with server
access.

When this contract began in December 2008, SSA paid annual software assurance
fees 1 for 85,000 Client Access licenses. However, SSA Human Resources data
indicate that combined SSA and DDS employees totaled 80,047 as of
September 30, 2008. Based on this information, SSA paid $78,554 more than
necessary during the contract base year to maintain Client Access license software for
personnel with access to SSA computer servers (see Table C-1).

         Table C-1 Client Access License Assurance Costs in Base Contract Year
                                                                       Base Year (December 2008)
                            Software Assurance Purchased                           85,000
    Combined SSA/DDS Employees as of September 30, 2008                            80,047
       Number of Licenses Above the Number of Employees                             4,953
          Software Assurance Fee per Client Access License                         $15.86
              Total Unsupported Cost in Contract Base Year                        $78,554

During the first year of the contract, SSA purchased an additional 8,213 Client Access
licenses, bringing SSA’s total number of licenses to 93,213. However, SSA Human
Resources data indicated that combined SSA and DDS employees totaled 85,151 at the
end of September 2009. Because SSA already owned 85,000 licenses, it only needed
to purchase 151 additional licenses to accommodate personnel increases. As shown in
Table C-2, SSA paid $3,597,829 for 8,062 unsupported Client Access licenses at the
end of the first contract year.




1
 SSA had already purchased the 85,000 licenses under the prior software contract. During the initial
contract year, SSA paid the contractor a per license software maintenance fee, referred to as software
assurance.


                                                  C-1
                  Table C-2 Client Access License Purchases in Year 1
                                                              Year 1 (Ended October 2009)
  Cumulative Client Access Licenses/Assurance Purchased                  93,213
 Combined SSA/DDS Employees as of September 30, 2009                     85,151
                           Number of Licenses Purchased                   8,062
           Contact Cost Per Additional License Purchased                $446.27
                         Total Unsupported Cost in Year 1            $3,597,829

During the second year of the contract, SSA purchased another 5,925 Client Access
licenses, bringing SSA’s total licenses to 99,138. However, SSA Human Resources
data indicated that combined SSA and DDS employees totaled 88,804 at the end of
September 2010. In total, SSA purchased 10,334 more licenses than necessary. We
account for 8,062 unsupported licenses in Table C-2. Table C-3 shows the cost of the
2,272 remaining unsupported licenses was $868,654 in year 2 of the contract.

                  Table C-3 Client Access License Purchases in Year 2
                                                              Year 2 (Ended October 2010)
  Cumulative Client Access Licenses/Assurance Purchased                  99,138
 Combined SSA/DDS Employees as of September 30, 2010                     88,804
   Number of Licenses Purchased Above Number Needed                      10,334
            Unsupported Purchases Included in Table C-2                   8,062
      Unsupported Licenses Purchased in Contract Year 2                   2,272
                                 Contact Cost Per License               $382.33
                         Total Unsupported Cost in Year 2              $868,654

Table C-4 provides our initial estimate of total questioned costs for Client Access
license purchases. Table C-5 provides a revised estimate of total questioned costs
based on additional information SSA provided on June 9, 2011.

            Table C-4 Total Unsupported Client Access License Expenditures
                                                                       Amount
               Base Year – Unsupported Assurance Costs                  $78,554
                Year 1 – Unsupported License Purchases               $3,597,829
                Year 2 – Unsupported License Purchases                 $868,654
                                Total Questioned Costs               $4,545,037


   Table C-5 Total Unsupported Client Access License Expenditures Adjusted Based
               on Additional Information SSA Provided on June 9, 2011
                                                                      Amount
                           Total Excess Licenses per Audit              10,334
                       Excess Licenses Agreed to by SSA                  7,256
                                   Percent (7,256 / 10,344)             70.2%
   Applied to Total Questioned Costs (70.2% * $4,545,037)           $3,190,616


                                             C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      August 24, 2011                                                         Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis     /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Contract With Dell Marketing, L.P., for Microsoft
           Licensing and Maintenance” (A-06-10-10175)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to Frances
           Cord at (410) 966-5787.




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL, “CONTRACT
WITH DELL MARKETING, L.P., FOR MICROSOFT LICENSING AND
MAINTENANCE” (A-06-10-10175)


Recommendation 1

Ensure future client access license purchases are based on the actual number of SSA users.

Response

We agree. We have implemented this recommendation.

Recommendation 2

Document the process used to determine the number of licenses purchased, and maintain and
update that documentation as needed for future contracts.

Response

We agree. We have implemented this recommendation.




                                             D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Neha Smith, Audit Manager

Acknowledgments

In addition to those named above:

   Lela Mitchell, Senior Auditor

For additional copies of this report, please visit our Website at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-10-10175.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
